No. 19-1010

 

IN THE

Supreme Court of the United States

ACTAVIS HOLDCO, INC., ET AL., PETITIONERS,

v.

STATE OF CONNECTICUT, ET AL., RESPONDENTS.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

REPLY TO BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,000 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 22, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
